Orrick, Herrington & Sutcliffe LLP

51 West 52nd Street
New York, NY 10019-6142

August 13, 2020

+1 212 506 5000

Via Electronic Filing

E. Joshua Rosenkranz

orrick.com

E jrosenkranz@orrick.com
D +1 212 506 5380
F +1 212 506 5151

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

The Chamberlain Group, Inc. v. Techtronic Industries Co., et al.,
No. 19-1299

Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioner in the abovecaptioned case respectfully requests that the Court delay distribution of the petition
for a writ of certiorari for 7 days. The petition is currently scheduled for
distribution no earlier than August 26, 2020. If this Court were to grant the
requested 7-day delay, distribution of the petition would occur no earlier than
September 2, 2020. The conference date—September 29, 2020—would remain
unchanged.
Petitioner requires the additional time to file its reply due to the logistical
difficulties and dislocations caused by the COVID-19 pandemic, including the need
to coordinate among multiple law firms each operating remotely. Counsel for
respondents authorized me to say that they do not object to the delay in
distribution.
Very truly yours,

E. Joshua Rosenkranz
Counsel for The Chamberlain Group, Inc.

cc:
William R. Peterson
MORGAN,LEWIS &BOCKIUS LLP
1000 Louisiana St., Ste. 4000
Houston, TX 77002
(713) 890-5188
william.peterson@morganlewis.com

2

